DOE F 1325.8
(08-93)
United States Government                                                         Department of Energy


Memorandum
        DATE:    September 30, 2010                                  Audit Report Number: OAS-L-10-09
    REPLY TO
     ATTN OF:    IG-321 (A09LL036)
     SUBJECT:    Final Report on "Subcontract Auditing at Lawrence Livermore National Laboratory"
           TO:   Senior Procurement Executive, National Nuclear Security Administration
                 Manager, Livermore Site Office

                 INTRODUCTION AND OBJECTIVE

                 Lawrence Livermore National Security, LLC, manages and operates the Lawrence
                 Livermore National Laboratory (Livermore) under a contract with the Department of
                 Energy's (Department) National Nuclear Security Administration (NNSA). In each
                 Fiscal Year (FY) from 2006 and 2008, Livermore incurred approximately $1.3 billion of
                 costs on behalf of the Department. Livermore spent an average of $650 million annually
                 on products and service acquisitions.

                 Livermore's contract incorporated Department of Energy Acquisition Regulation clauses
                 970.5232-3 and 970.5244-1 that required Livermore to provide for periodic post-award
                 audits of cost-reimbursement subcontractors and subcontracts where costs incurred are a
                 factor in determining the amount payable. To ensure the integrity and reliability of
                 contractor cost data, the Office of Inspector General (OIG), the Office of the Chief
                 Financial Officer, the Office of Procurement and Assistance Management, and the
                 Contractor Internal Audit Council, developed the Cooperative Audit Strategy (Strategy).
                 The Strategy became a contractual requirement under Department of Energy Acquisition
                 Regulation 970.5232-3, in November 2004, through Acquisition Letter 2005-04. Under
                 the Strategy, contractors must provide an Implementation Design plan which includes
                 identifying what auditing standards will be used and the plan for pre-award and post-
                 award audits of subcontractors. As part of the Strategy, contractors may use their own
                 internal auditor staff, engage contract auditors, or use the services of the Defense
                 Contract Audit Agency (DCAA) to audit subcontractors. The Strategy also requires that
                 internally performed audits must, at a minimum, meet The Institute of Internal Auditors
                 (IIA) Standards for auditing that provide criteria for, among other things, measuring the
                 quality of internal audits.

                 Livermore used cost/price analysts in its Supply Chain Management Department to
                 perform post-award reviews of cost-reimbursement subcontractors. During FYs 2006 to
                 2008, the cost/price analysts completed 233 incurred cost reviews, covering $764 million
                 of subcontractor costs, and 262 subcontract closeout reviews. Due to the significant
                 amount of subcontract costs, reviewed by these analysts, the OIG initiated this audit to
                 determine whether Livermore's subcontract reviews met the Department's requirements
                 for audits of subcontracts.
CONCLUSIONS AND OBSERVATIONS

Livermore's subcontract reviews did not always meet the Department's subcontract audit
requirements. Specifically, Livermore's subcontract reviews did not always meet, among
other things, the quality requirements established by the IIA Standards. Based on our
examination of 16 of the 233 reviews performed during FYs 2006 through 2008, covering
$26 million of $764 million in incurred costs, we determined that Livermore had not
always performed transaction tests necessary to determine the reasonableness of
subcontractor charges in 4 of the 16 reviews; including tests to determine whether:

       A subcontractor's $41,666 charge for two trucks which had an initial combined
       value of $16,045 was reasonable; and,

       The electronic ordering system prices charged by two subcontractors were
       consistent with available catalogs and the contract pricing schedule. Our test
       work revealed that the subcontractors charged $11,009 more than the pricing in
       the catalog schedules.

Further, Livermore had not always provided evidence that the supervisor reviewed
workpapers supporting the 16 subcontract review reports to ensure the quality of the
performed work.

We also noted that Livermore did not always meet the IIA Standards in the areas of
independence, objectivity, due professional care, and continuing professional
development. The cost/price analysts performing the reviews were not organizationally
independent and they were placed in situations that could impair their objectivity.
Specifically, the analysts reported to the same procurement official as the contract
administrators whose contract actions the analysts reviewed for reasonableness and
allowability. Additionally, we determined that the cost/price analysts had not questioned
potentially unallowable costs, including sales taxes that were specifically identified in
supporting vendor invoices for three subcontracts, raising doubt about whether the
analysts carefully examined the invoices. In the area of continuing professional
development, we noted that the cost/price analysts completed significantly fewer hours of
continuing education than that recommended by the IIA.

Although the dollar values of the questionable cost that we identified are relatively minor
compared to overall subcontract costs, they illustrate that the current practices could lead
to future errors and increased risk.

                                   Audit Requirements

The NNSA's Livermore Site Office did not enforce the Department's requirements for
auditing subcontract incurred costs. Specifically, Livermore's contract Statement of
Work did not require subcontract audits. Additionally, the Livermore Site Office
approved Livermore's approach to performing subcontract reviews rather than requiring it
to perform subcontract audits in accordance with professional auditing standards.


                                     2
While Livermore's contract Statement of Work did not require audits, the contract clearly
establishes that compliance with Department regulations takes precedence over the
provisions in the Statement of Work. Additionally, the Livermore Site Office allowed
Livermore to perform subcontract reviews rather than audits because of Livermore's
concern that following standards would increase the workload and thereby prevent timely
subcontract closeouts. While compliance with professional auditing standards is likely to
increase the investment in resources, we concluded that the resulting increase in
assurance that payments are made only for allowable costs outweighs the incremental
investment in resources.

                                  Functional Reporting

The absence of a functional reporting relationship between the analysts and Livermore's
Audit Committee also contributed to nonconformance with standards. As noted above,
the analysts reported to a procurement manager but did not report functionally to the
Audit Committee. The Strategy indicates that an audit activity should report functionally
to the Board of Directors, Audit Committee, or equivalent corporate independent
governing body. We concluded that the lack of a functional reporting relationship with
the Audit Committee weakened organizational independence, and created the appearance
of impaired objectivity.

Our concern regarding the independence of groups responsible for auditing subcontract
costs is not new. Specifically, in our previous report entitled Audit of Implementation of
the Cooperative Audit Strategy by National Nuclear Security Administration Managed
Contractors (OAS-L-09-11, July 2009), we noted that, at some sites, non-independent
procurement groups were conducting subcontract cost audits. During our current audit,
we noted that, similar to Livermore, Los Alamos National Laboratory (Los Alamos)
conducted subcontract audits under its procurement division and had eliminated the
requirement to follow professional auditing standards. However, according to Los
Alamos' Ethics and Audit Manager, Los Alamos is currently in the process of transferring
its subcontract audit function to the Ethics and Audit Division in order to increase
independence, follow the IIA Standards, and restore functional reporting to the Audit
Committee.

                                  Management Actions

NNSA management did not agree that Livermore's subcontract review practices have
increased cost risk at a level warranting a requirement to audit all subcontracts.
Management acknowledged that Livermore's review practices do not comply with the
Department of Energy Acquisition Regulation and that auditors should be used to perform
audits in accordance with acceptable audit standards. However, management stated that
Livermore Site Office Contracting Officers should have sufficient discretion to determine
when an audit or review would be required. As such, NNSA approved Livermore Site
Office's request for a deviation from the Department of Energy Acquisition Regulation’s
subcontract audit requirements on September 24, 2010. With the approved deviation, the
Livermore Site Office Contracting Officers will have sufficient discretion to determine



                                    3
and influence Livermore's internal policy to determine when an audit or a review would
be best used. Management indicated that it would hold the Livermore Site Office's
Contracting Officers accountable to determine and assure Livermore's policies and
practices on reviews or audits reflect both objectivity and effectiveness. Further, in
NNSA's deviation approval, management indicated that when audits are required, they
will be performed by professional, properly trained auditors who follow accepted audit
procedures and standards specified in the IIA Standards for auditing.

While we acknowledge that NNSA has the authority to approve a deviation from
Department regulations, we believe the audit requirements identified in the Department
of Energy Acquisition Regulation are sound and should be adhered to, especially given
that Livermore incurs approximately $650 million each year in subcontract costs. We
also recognize that audits of subcontracts should be cost effective and that not every
subcontract needs to be subjected to audit. Rather, the decision to perform an audit
should be based on the level of risk represented by the circumstances surrounding the
subcontract such as type of subcontract, dollar value, and past performance of the
subcontractor. NNSA, however, has not established risk-based criteria, such as dollar
thresholds, to determine when audits will be performed by auditors in accordance with
acceptable audit standards.

Accordingly, we suggest that the NNSA Senior Procurement Executive provide guidance
to the Livermore Site Office that establishes risk-based criteria for when the Contracting
Officer should require subcontract audits that comply with IIA standards.

Our scope and methodology is described in the attachment.




                                     David Sedillo, Director
                                     NNSA and Science Audits Division
                                     Office of Inspector General

Attachment

cc: Director, Office of Risk Management, CF-80
    Team Leader, Office of Risk Management, CF-80
    Audit Resolution Specialist, Office of Risk Management, CF-80
    Director, Office of Field Financial Management, NZ
    Director, Internal Controls Management, NA-66
    Audit Liaison, Livermore Site Office




                                     4
                                                                                    Attachment


SCOPE AND METHODOLOGY

This audit was performed between May 2009 and September 2010, at Livermore, located in
Livermore, California, and Los Alamos National Laboratory (Los Alamos), in Los Alamos, New
Mexico. Our audit included Livermore's cost/price analyst reviews, and Los Alamos' audit
reports covering subcontractor costs incurred in Fiscal Years (FY) 2006, 2007, and 2008.

To accomplish the audit objective, we:

       Interviewed personnel at Livermore, Los Alamos, and the National Nuclear Security
       Administration's (NNSA) Livermore and Los Alamos Site Offices;

       Reviewed Livermore and Los Alamos' policies and procedures;

       Reviewed Livermore and Los Alamos' Prime Contract with the Department and
       applicable federal regulations and policy guidance;

       Reviewed Los Alamos interim subcontract audit reports;

       Judgmentally selected a sample of Livermore's cost/price analyst reviews of subcontracts
       where costs incurred were a factor in determining the amount payable to the
       subcontractor;

       Reviewed the subcontract files and workpapers for the sample;

       Tested each review for compliance with The Institute of Internal Auditors Standards and
       effectiveness in detecting questionable costs; and,

       Reviewed prior audit reports related to the audit objective.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. The audit included tests of internal
controls and compliance with laws and regulations to the extent necessary to satisfy the audit
objective. Because our review was limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our audit. We also reviewed
performance measures in accordance with the Government Performance and Results Act of 1993
relevant to subcontractor auditing. We found that Livermore did not have performance measures
specifically relating to subcontractor auditing during the scope of audit work. However, in
Livermore's FY 2009 performance measures, the Livermore Site Office required Livermore to
demonstrate an effective and efficient audit organization consistent with contractual and
Cooperative Audit Strategy requirements. We did not rely on computer-processed data to satisfy
our audit objective. NNSA waived an exit conference.



                                                5
                                                                    IG Report No. OAS-L-10-09

                                  CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
